      Department of Homeland Security


        The State of Louisiana’s Management of
         State Homeland Security Program and
         Urban Areas Security Initiative Grants
              Awarded During Fiscal Years
                     2007 through 2009




OIG-12-03                                    November 2011
                                                                       Office
                                                                       Offce ofo/1nspector
                                                                                  Inspector General
                                                                                            General

                                                                       U.S.
                                                                       U.S. Department
                                                                            Department of Homeland Security
                                                                       Washington, DC
                                                                       Washington, DC 20528




                                                                       Homeland
                                                                       Security

                                     NOV  7.~2011
                                     NOV ,~  2011
                                                    Preface
                                                    Preface

 The Department ofHomeland
The Department of     Homeland Security
                                   Security (DHS) Office ofInspector
                                                            ofInspectorGeneral
                                                                           General (OIG)
                                                                                    (OIG) was
                                                                                            was
established
 established by
              by the Homeland
                     Homeland Security
                                 Security Act of2002
                                               of2002 (Public
                                                        (Public Law
                                                                 Law 107-296)
                                                                       107-296) byby amendment
                                                                                      amendment
to
to the
    the Inspector
        Inspector General
                   GeneralAct
                            Act of
                                of1978. This
                                           Thisisisone
                                                    oneof
                                                        ofaaseries
                                                             series of
                                                                    ofaudit,
                                                                       audit, inspection,
                                                                               inspection, and
                                                                                           and
special
 special reports prepared
                  prepared as
                           as part
                              part of
                                    ofour
                                      our oversight
                                          oversight responsibilities
                                                      responsibilities to
                                                                        to promote
                                                                           promote economy,
                                                                                     economy,
efficiency,
 efficiency, and
             and effectiveness
                  effectiveness within
                                within the
                                        the Department.
                                             Department.

This report addresses the State ofLouisiana's
This report addresses the State of  Louisiana's       management
                                              management of            of State
                                                                           State Homeland
                                                                                  Homeland Security
                                                                                             Security
Program
Program and
          and Urban
              Urban Areas Security
                             Security Initiative grants. ItItisis based
                                                                      based on
                                                                             on interviews
                                                                                 interviews with
                                                                                            with
employees
 employees and
            and officials
                officials of
                          ofrelevant
                             relevant agencies
                                      agencies and  and institutions,
                                                            institutions, direct
                                                                          direct observations,
                                                                                  observations, and
                                                                                                and aa
review of applicable  documents.
review of applicable documents.

The
 The recommendations
      recommendations herein
                           herein have
                                    have been
                                          been developed
                                                developed toto the
                                                                the best
                                                                     best knowledge
                                                                           knowledge available
                                                                                       available to
                                                                                                  to our
                                                                                                     our
office,
 office, and
         and have
              have been
                    been discussed in draft with those responsible for implementation.
                                                                               implementation. We  We
trust
 trust this
       this report wil
                   willresult
                        resultin
                               in more
                                   more effective,
                                          effective, effcient,
                                                     efficient, and
                                                                 and economical
                                                                       economical operations. We  We


                                                    ~~~
express
 express our
           our appreciation
               appreciation to
                             to all
                                 all of
                                     ofthose
                                        those who
                                               who contributed
                                                    contributedto  to the
                                                                       the preparation
                                                                           preparationofofthis
                                                                                           thisreport.
                                                                                                report.

                                                    ~:;(~
                                                Anne  L. Richards
                                                Anne L.   Richards
                                                Assistant
                                                Assistant Inspector
                                                           Inspector General
                                                                     General for
                                                                              for Audits
                                                                                  Audits
Table of Contents/Abbreviations 

Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 2 


     Louisiana’s Management Practices Were Generally Effective, but 

      Require Some Improvements..................................................................................... 2 


     Establish Measurable Goals and Objectives ................................................................ 3 

     Recommendation ......................................................................................................... 4 

     Management Comments and OIG Analysis ................................................................ 4 


     Enhance Subgrantee Monitoring ................................................................................. 4 

     Recommendation ......................................................................................................... 6 

     Management Comments and OIG Analysis ................................................................ 6 


     Implement Multi-Year Training and Exercise Plan ..................................................... 7 

     Recommendation ......................................................................................................... 8 

     Management Comments and OIG Analysis .................................................................8 


Appendices
     Appendix A: Purpose, Scope, and Methodology ....................................................... 9 

     Appendix B: Management Comments to the Draft Report ..................................... 12 

     Appendix C: Homeland Security Grant Program Background ............................... 16 

     Appendix D: Louisiana Governor’s Office of Homeland Security and Emergency 

                 Preparedness Organization Chart........................................................ 17 

     Appendix E: Map of Louisiana’s Nine Homeland Security Regions ..................... 18 

     Appendix F: Major Contributors to this Report ...................................................... 19 

     Appendix G: Report Distribution ............................................................................ 20 


Abbreviations
     CFR                   Code of Federal Regulations 

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency

     FY                    fiscal year

     OIG                   Office of Inspector General 

     SAA                   State Administrative Agency 

     SHSP                  State Homeland Security Program 

     UASI                  Urban Areas Security Initiative 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Public Law 110-53, Implementing Recommendations of the 9/11
                      Commission Act of 2007, requires the Department of Homeland
                      Security, Office of Inspector General, to audit individual states’
                      management of State Homeland Security Program and Urban
                      Areas Security Initiative grants. This report responds to the
                      reporting requirement for the State of Louisiana.

                      The objectives of the audit were to determine if the State of
                      Louisiana distributed and spent State Homeland Security Program
                      and Urban Areas Security Initiative grant funds effectively and
                      efficiently and in compliance with applicable federal laws and
                      regulations. We also assessed the extent to which grant funds
                      enhanced Louisiana’s ability to prevent, prepare for, protect
                      against, and respond to natural disasters, acts of terrorism, and
                      other man-made disasters. The audit included a review of
                      approximately $59.2 million in State Homeland Security Program
                      and Urban Areas Security Initiative grant funds awarded to
                      Louisiana during fiscal years 2007 through 2009.

                      Generally, the State of Louisiana administered grant program
                      requirements effectively and efficiently and in compliance with
                      grant guidance and regulations. Louisiana linked program goals and
                      objectives to national priorities and Department of Homeland
                      Security mission areas. Grant funds were spent on allowable items
                      and activities, and adequate controls existed over the approval of
                      expenditures and reimbursement of funds. However, improvements
                      are needed in measuring goals and objectives, subgrantee
                      monitoring, and multi-year training and exercise plans.

                      We made three recommendations to the Federal Emergency
                      Management Agency to initiate improvements that, when
                      implemented, should strengthen program management,
                      performance, and oversight. Written comments to the draft report
                      are incorporated as appropriate and included in their entirety in
                      appendix B.




          The State of Louisiana’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 1

Background
                     The Department of Homeland Security (DHS) provides federal
                     funding through the Homeland Security Grant Program to help
                     state and local agencies enhance capabilities to prevent, deter,
                     respond to, and recover from terrorist attacks, major disasters, and
                     other emergencies. Appendix C contains additional details
                     regarding the Homeland Security Grant Program.

                     In Louisiana, the State Administrative Agency (SAA) is the
                     Governor’s Office of Homeland Security and Emergency
                     Preparedness, which administers the Homeland Security Grant
                     Program. The SAA is responsible for managing the grant
                     programs in accordance with established federal guidelines and
                     allocating funds to local, regional, and other state government
                     agencies. The Louisiana SAA organization is depicted in appendix
                     D.

                     The SAA subawarded the Homeland Security Grant Program funds
                     to Louisiana’s nine homeland security regions and various State
                     agencies. The location and parishes within Louisiana’s nine
                     regions are illustrated in appendix E.

                     During fiscal years (FYs) 2007 through 2009, the Federal
                     Emergency Management Agency (FEMA) awarded the State of
                     Louisiana approximately $40.4 million in State Homeland Security
                     Program (SHSP) funds, and approximately $18.8 million in Urban
                     Areas Security Initiative (UASI) grant funds for a total of
                     $59.2 million in Homeland Security Grants. Appendix A provides
                     details on the purpose, scope, and methodology for this audit.

Results of Audit
     Louisiana’s Management Practices Were Generally Effective, but
     Require Some Improvements
            Generally, the State of Louisiana distributed and spent SHSP and UASI
            grant funds effectively and efficiently and in compliance with applicable
            federal laws and regulations. It did an effective job of developing its
            Homeland Security Strategic Plan, and allocated and spent funds based on
            national and state priorities. However, Louisiana could improve its
            management by—

                     Establishing measurable goals and objectives;
                     Enhancing subgrantee monitoring; and
         The State of Louisiana’s Management of State Homeland Security Program and 

      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                             Page 2

                Implementing multiyear training and exercise plans.

Establish Measurable Goals and Objectives
       Louisiana’s Homeland Security Strategy included goals and objectives
       linked to the National Priorities (see appendix C). The strategy also
       addressed each of the four mission areas (prevention, protection, response,
       and recovery) and was developed using a baseline risk assessment.
       Although the objectives were focused and aligned with the National
       Priorities, they did not include metrics by which to measure performance.
       Only 1 of the 11 goals we reviewed included a time-limited objective.

       For example, the third goal in Louisiana’s 2005 Homeland Security
       Strategy, “To maintain and increase the State, regional and local Terrorism
       Early Warning, Intelligence and Information Sharing program by
       expanding the capabilities of the State Fusion Center and existing
       Homeland Security Information/Intelligence nodes,” does not include
       measurable objectives. Although the goal’s objectives describe how to
       achieve the goal (e.g., “Ensure that the fusion process is fully capable of
       communicating effectively and efficiently with the Federal
       Government…”), the objective is not measurable or quantifiable because it
       does not define what Louisiana deems “effective and efficient.” In
       addition, the goal and objectives do not identify a target date when the
       objectives should be achieved.

       According to the State and Urban Area Homeland Security Strategy,
       Guidance on Aligning Strategies with the National Preparedness Goal, the
       SAA or Urban Area Working Groups should assess the strategy’s
       objectives to determine whether the measures are meaningful, the
       measurement methodology is sound, and the measures can be verified
       with reliable data.

       Louisiana SAA officials acknowledged that they do not have a formal
       overall means of measuring improved capabilities or program
       achievements, and that evaluating trend analysis is difficult owing to
       yearly changes to the measures of specific program elements or priorities.
       Without specific and measurable goals and objectives, neither the SAA
       nor FEMA can determine whether capabilities for preparedness improved
       as a result of Homeland Security Grant funding.

       SAA officials and urban area directors have not implemented performance
       measurement tools, in part because (1) FEMA approved the current
       strategies, including the existing performance measures, and (2) the SAA
       was assured that it would receive FEMA’s assistance in developing useful
       performance measures, but it has yet to receive any such assistance.

    The State of Louisiana’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                        Page 3

       Recommendation
                We recommend that the Assistant Administrator, Grant Programs
                Directorate, require the Director of the Louisiana State Governor’s
                Office of Homeland Security and Emergency Preparedness to—

                Recommendation #1: Develop Homeland Security strategic goals
                and objectives that are specific, measurable, achievable, results-
                oriented, and time-limited, and include associated performance
                measures in its strategic plan.

       Management Comments and OIG Analysis
                FEMA concurs with the intent of recommendation 1. FEMA is
                revising the guidance and the content of the Homeland Security
                strategy, which is anticipated for release in the fall of 2011. The
                Preparedness Grants Division will require the Director of the
                Louisiana State Governor’s Office of Homeland Security and
                Emergency Preparedness to update its strategy and comply with
                revised Homeland Security strategy guidelines within 120 days of
                the release of the revised guidance.

                The Louisiana State Governor’s Office of Homeland Security and
                Emergency Preparedness stated that it will develop specific,
                measurable, achievable, results-oriented, and time-limited
                objectives in its strategy.

                The responses of FEMA and the Louisiana State Governor’s
                Office of Homeland Security and Emergency Preparedness include
                positive steps for implementing the recommendation. However,
                until a firm timetable for implementing the recommendation is
                provided, this recommendation will remain unresolved and open.

Enhance Subgrantee Monitoring
       Although the SAA provides acceptable financial monitoring for
       expenditures and reimbursements, it does not have adequate oversight to
       ensure that subgrantees comply with all federal requirements. The SAA’s
       monitoring processes are not sufficient to identify subgrantees’ lack of
       compliance with federal financial and equipment-related requirements.
       We reviewed 17 subgrantee financial records and determined that 5 of the
       17 did not include required information such as records of expenditures,
       obligations, unobligated balances, and liabilities.


    The State of Louisiana’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                        Page 4

      We also reviewed the equipment property records of 16 subgrantees and
      determined that 7 did not include pertinent information such as acquisition
      dates, serial numbers, cost, or location. (One regional subgrantee did not
      maintain equipment inventory records for constituent parishes, so its
      compliance with equipment requirements was not tested.)

      Grantees and subgrantees receiving SHSP and UASI grant funds are
      required to comply with all applicable laws, regulations, and program
      guidance. The Code of Federal Regulations (CFR), Title 44 §13.20,
      requires grantees and subgrantees to maintain records that adequately
      identify the source and application of funds provided for financially
      assisted activities. These records must include grant or subgrant awards
      and authorizations, obligations, unobligated balances, assets, liabilities,
      outlays or expenditures, and income.

      Grantees and subgrantees must maintain equipment records sufficient to
      detail significant procurement history. According to 44 CFR 13.32(d)(1),
      property inventory records must include the following 11 data elements
      for each item: unit cost, description, source, acquisition date,
      identification number, location, title holder, use and condition, percentage
      purchased with federal funds, ultimate disposition date, and sales price. In
      addition, a control system must ensure adequate safeguards to prevent
      loss, damage, or theft of the property; and any loss, damage, or theft must
      be investigated according to 44 CFR 13.32(d)(3).

      Inaccurate, incomplete, and missing records impede subgrantees’ ability to
      make sound management decisions regarding future equipment needs and
      duplicate purchases. In addition, the SAA does not have reasonable
      assurances that assets procured with federal funds are adequately
      safeguarded to prevent loss, damage, theft, or abuse.

      Before August 2010, the SAA relied solely on regional coordinators to
      conduct site visits to verify compliance with federal requirements for SHSP
      and UASI grants. In 2009, the regional coordinators conducted site visits
      for only 25 of the 63 State Homeland Security Program subgrantees—fewer
      than 50% of subgrantees. When conducting the monitoring site visits, the
      coordinator used a checklist of general questions to evaluate compliance.
      However, the checklist did not specifically address standards for financial
      management systems in 44 CFR 13.20 and equipment in 44 CFR 13.32.
      Therefore, the number of site visits and the criteria used for evaluation were
      not sufficient to identify noncompliance.

      In August 2010, the SAA transferred subgrantee site monitoring
      responsibilities to the Governor’s Office of Homeland Security and
      Emergency Preparedness Management, Finance, and Interoperability

   The State of Louisiana’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 5

      division. The transfer improved verification of subgrantee compliance
      with equipment property records in 44 CFR 13.32, but the division’s
      monitoring plan does not include steps to validate compliance with all the
      standards for financial management in 44 CFR 13.20.

      Monitoring assesses the quality of program performance over time and
      ensures that grant activities comply with federal regulations. If
      monitoring is not improved, the SAA is at increased risk that it will not
      detect fraud at the subgrantee level and has no assurance that subgrantees
      are following federal guidelines.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Louisiana State Governor’s
               Office of Homeland Security and Emergency Preparedness to—

               Recommendation #2: Review the effectiveness of its current
               subgrantee monitoring processes and implement additional
               procedures to ensure compliance with all federal and grant
               requirements.

      Management Comments and OIG Analysis
               FEMA concurs with recommendation 2. FEMA requests that the
               Louisiana State Governor’s Office of Homeland Security and
               Emergency Preparedness revise its Homeland Security Grant
               Program monitoring policy to include requirements associated with
               financial management and equipment/property records. The State
               must submit the revised policy to the Grants Program Directorate
               within 90 days of the receipt of the final report. In addition, the
               revised policy should ensure that the criteria for determining
               compliance with the program’s applicable federal rules and
               regulations are clearly communicated and can be assessed
               accordingly. FEMA also requests that the revised monitoring plan
               incorporate any applicable findings from past financial monitoring
               reviews conducted by FEMA Region VI Grants Management
               Branch to ensure that all necessary areas are covered.

               The Louisiana State Governor’s Office of Homeland Security and
               Emergency Preparedness stated that it will implement additional
               procedures to enhance the monitoring system currently in place
               and ensure subgrantee compliance with all federal and grant
               requirements.


   The State of Louisiana’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 6

                The actions proposed by both FEMA and the Louisiana State
                Governor’s Office of Homeland Security and Emergency
                Preparedness meet the intent of the recommendation. If properly
                implemented, the actions identified in the responses should address
                the conditions identified during the audit. This recommendation is
                considered resolved and open, pending final implementation of the
                proposed corrective actions.

Implement Multi-Year Training and Exercise Plan
       Although the training of first responders and emergency operations
       personnel is a critical factor of preparedness, the New Orleans Urban Area
       does not yet have a multi-year training and exercise plan for its region.

       According to the FY 2007 Department of Homeland Security grant
       guidance, which is based on the September 2007 Department of Homeland
       Security National Preparedness Guidelines, urban areas were each
       required to develop a multi-year training and exercise plan. For FYs 2008
       and 2009, the grant guidance was updated to require all urban areas to
       submit their multi-year training and exercise plans to FEMA annually.

       The New Orleans Urban Area explained that it did not have a multi-year
       training plan because it relied on a University of New Orleans consortium
       to develop a plan. However, the consortium was abolished in 2009
       because of budget shortfalls. The New Orleans Urban Area has not been
       able to obtain its training records and training and exercise plan from the
       University of New Orleans.

       As a result of FEMA’s August 2010 UASI Programmatic Monitoring
       visit, FEMA required the New Orleans Urban Area to develop a multi­
       year training and exercise plan by April 2011. Subsequently, in December
       2010, the New Orleans UASI was selected by the Texas A&M University
       System’s Texas Engineering Extension Service as a pilot site for its
       Training Needs Assistance Project. The project staff intends to conduct
       needs assessments of functional skills required by first responders, identify
       DHS-approved training courses that meet their needs, and develop a
       3-year training schedule to deliver the courses to regional first responders.
       The pilot should result in a fully developed multi-year training plan. In
       addition, UASI officials stated that the SAA is actively assisting them in
       identifying and integrating local, regional, state, and federal exercises into
       a single document that will become its exercise plan.




    The State of Louisiana’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                        Page 7

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Louisiana State Governor’s
               Office of Homeland Security and Emergency Preparedness to—

               Recommendation #3: Require the SAA to follow up on progress
               made by Texas A&M University and ensure that the New Orleans
               Urban Area implements its multi-year training and exercise plan
               once it is completed.

      Management Comments and OIG Analysis
               FEMA concurs with recommendation 3. FEMA requests that the
               Louisiana State Governor’s Office of Homeland Security and
               Emergency Preparedness submit an implementation plan and
               timeline of Texas A&M University’s development and completion
               of New Orleans Urban Area’s multi-year training and exercise plan
               within 30 days of the receipt of the final report via the grantee
               notification. Further, the Louisiana State Governor’s Office of
               Homeland Security and Emergency Preparedness should submit
               the plan to FEMA immediately following its completion or within
               90 days of receiving the final report, whichever comes first.

               The Louisiana State Governor’s Office of Homeland Security and
               Emergency Preparedness stated that it has and will continue to
               support the New Orleans Urban Area in its development of its
               multi-year training and exercise plan. The office stated that, to
               date, the project is well underway and the Region 1 working group
               and Texas A&M University have held numerous regional,
               individual, and stakeholder planning meetings that included state
               representatives. The Louisiana State Governor’s Office of
               Homeland Security and Emergency Preparedness stated that it will
               ensure that the New Orleans Urban Area develops and implements
               its multi-year plan accordingly.

               The actions proposed by both FEMA and Louisiana State
               Governor’s Office of Homeland Security and Emergency
               Preparedness meet the intent of the recommendation. If properly
               implemented, the actions identified in the responses should address
               the conditions identified during the audit. This recommendation is
               considered resolved and open, pending final implementation of the
               proposed corrective actions.



   The State of Louisiana’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 8

Appendix A
Purpose, Scope, and Methodology

                       The purpose of the audit was to determine whether the State of
                       Louisiana distributed and spent State Homeland Security Program
                       and Urban Areas Security Initiative grant funds effectively and
                       efficiently and in compliance with laws, regulations, and guidance.
                       In addition, we assessed the extent to which the State measured
                       improvements in its ability to prevent, prepare for, protect against,
                       and respond to natural disasters, acts of terrorism, and other man-
                       made disasters.

                       The entire Homeland Security Grant Program and its five
                       interrelated grant programs fund a range of preparedness activities,
                       including planning, organization, equipment purchase, training,
                       exercises, and management and administration costs. Because of
                       the interrelationship of these grant programs, all were considered
                       when evaluating the planning cycle and the effectiveness of the
                       overall grant program. However, only SHSP and UASI funding
                       equipment and programs supported by the grant funding were
                       reviewed for compliance. Additional information on these grant
                       programs is provided in appendix C.

                       The scope of the audit included the following:

                                     Homeland Security Grant Program Awards
                                             FYs 2007 through 2009
                          Program             FY 2007         FY 2008         FY 2009             Total
                    State Homeland
                                             $9,460,000     $16,110,000     $14,815,500         $40,385,500
                    Security
                    Urban Areas Security
                                             $4,380,000      $6,035,000     $8,402,350          $18,817,350
                    Initiative

                          Subtotal           $13,840,000     $22,145,000    $23,217,850         $59,202,850
                    Law Enforcement
                                              $6,760,000        N/A             N/A              $6,760,000
                    Terrorism Prevention
                    Citizen Corps               $240,451        $232,993       $231,965           $705,409
                    Metropolitan Medical
                                              $1,032,581      $1,284,884     $1,284,884          $3,602,349
                    Response System
                            Total            $21,873,032     $23,662,877    $24,734,699         $70,270,608
                       Source: Federal Emergency Management Agency.




           The State of Louisiana’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                               Page 9

Appendix A
Purpose, Scope, and Methodology

                       The audit methodology included interviews with FEMA
                       representatives as well as workers at the SAA, the New Orleans
                       and Baton Rouge urban areas, and various subgrantee locations.
                       To achieve our audit objective, we analyzed data, reviewed
                       documentation, and interviewed key State and local officials
                       directly involved in the management and administration of the
                       State of Louisiana’s Homeland Security Grant Programs. We
                       conducted site visits and held discussions with appropriate officials
                       from selected State agencies, regional task forces, urban areas, and
                       local jurisdictions to determine whether program grant funds were
                       expended in accordance with grant requirements and State-
                       established priorities.

                       We contacted the following subgrantee organizations:

                       Regional
                         g      Areas
                             Region 1 

                             Region 2 

                             Region 3 

                             Region 8 


                       Urban Areas Security Initiative Recipients
                             New Orleans 

                             Baton Rouge 


                       State Agencies
                              Department of Agriculture and Forestry
                              Department of Social Services
                              Governor’s Office of Homeland Security and Emergency
                              Preparedness
                              Louisiana Sheriff’s Association
                              Louisiana State Police
                              Louisiana State University 

                              Office of Administration 

                              State Military Department/Louisiana National Guard

                       Parishes
                              Ascension
                              East Baton Rouge
                              Jefferson
                              Lincoln
                              Livingston
                              Orleans


           The State of Louisiana’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 10

Appendix A
Purpose, Scope, and Methodology

                                St. Bernard
                                St. Tammany

                       First Responders
                              Baton Rouge Police Department
                              Jefferson Parish Fire Department and Emergency Medical
                              Services
                              Lincoln Parish Sheriff’s Office 

                              New Orleans Fire Department 

                              New Orleans Police Department 

                              St. Bernard Parish Fire Department 

                              St. Tammany Parish Sheriff’s Office 

                              Terrebonne Parish Sheriff’s Office 


                       We interviewed responsible officials, reviewed documentation
                       supporting SAA and subgrantee management of the awarded grant
                       funds (including expenditures for equipment, training, and
                       exercises), and physically inspected judgmentally selected samples
                       of equipment procured with the grant funds.

                       The team reviewed a judgmental sample of the grants expenditures
                       representing approximately 59% of the dollar value expended for
                       the FYs 2007–2009 grants to determine whether the expenditures
                       were supported and allowable under the grants. The team
                       judgmentally chose specific equipment items to observe at the
                       local sites where they reside.

                       We conducted this performance audit between October 2010 and
                       March 2011 pursuant to the Inspector General Act of 1978, as
                       amended, and according to generally accepted government
                       auditing standards. Those standards require that we plan and
                       perform the audit to obtain sufficient, appropriate evidence to
                       provide a reasonable basis for our findings and conclusions based
                       upon our audit objectives. We believe that the evidence obtained
                       provides a reasonable basis for our findings and conclusions based
                       upon our audit objectives.




           The State of Louisiana’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 11

Appendix B
Management Comments to the Draft Report



                                                                                u.S.l)~Jl:lrllll~rll orll",n~13nd S~curil,·
                                                                                S(K) C Sm"cl, SW
                                                                                Wa,hmglOn. DC 20~72




                                             SEP 0 7 2011




       MEMORANDUM FOR:               Anne L. Richards
                                     Assistant Inspector General for Audits
                                     Office of Inspector General

       FROM:                         David J. Kaufman
                                     Director
                                                          I£--
                                     Office of Policy and Program Analysis

       SUBJECT:                       Response to Draft Report OIG: Tile State a/Louisiana's
                                      Management a/Stale Homelalld Security Program (SHSP) (llld
                                      Vrban Areas Securiry Initiatives (VAS!) Grallts Awarded during
                                      Fiscal Years 2007 through 2009


       Thank you for thc opportunity to comment on the subject draft report. The findings in the report
       will be used to strengthen the effectiveness and efficiency of how we execute and measure our
       programs. We recognize the need to continue to improve the process, including addressing the
       recommendations raised in this report. Our responses to your three recommendations are as
       follows:

        OIG Recommendation #1: We recommend that the Assistant Administrator, Grant Programs
        Directorate (GPO), require the Director of tile Louisiana State Governor's Office of Homeland
        Security and Emergency Preparedness to develop Homeland Security stmtegic goals and
        objectives that are specific, measurable, achievable, results oriellted, and time-limited, and
        include associated performance measures in its strategic plan.

        FEMA Response to Recommendation #1: FEMA concurs with the intent of this
        recommendation. The National Preparedness Directorate (NPD), the Federal Emergency
        Management Agency (FEMA) entity responsible for the homeland security strategy (HSS) and
        its guidance, is revising the guidance and the content orthe HSS which is anticipated for release
        in fall 2011 in advance of the FY 2012 Homeland Security Grant Progmm (HSGP) application
        cycle. Within 120 days of the release of the revised guidance, thc Louisiana Governor's Office
        of Homeland Security and Emergency Preparedness (GOHSEP) is required to update their HSS




                                                                                \\"11\1·.fl'lII:I.:.:01'




          The State of Louisiana’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 12

Appendix B
Management Comments to the Draft Report




                                                         2


        and comply with revised guidelines developed by NPD. FEMA believes this satisfies the intent
        of the recommendation and requests that this recommendation remain resolved and open.

        DIG RecommendatioD #2: We recommend that the Assistant Administrator, GPO, require the
        Director of the Louisiana State Governor's Office of Homeland Security and Emergency
        Preparedness to review the effectiveness of its current subgrantee monitoring processes and
        implement additional procedures to ensure compliance with all Federal and grant requirements.

        FEMA Response to Recommendation #2: FEMA concur.; with this recommendation. FEMA
        requests that GOHSEP revise the state's HSGP monitoring policy to include requirements
        associated with: (1) financial records management (44 CFR § 13.20); and (2) equipmenVproperty
        records (44 CFR § 13.32). These additional elements are intended to meet the areas this report
        has identified as needing improvement. The revised policy will ensure that the criteria for
        detennining compliance with the program's applicable federal rules and regulations are clearly
        communicated and can be assessed accordingly. Additionally, FEMA requests that GOHSEP
        incorporate any applicable findings from past financial monitoring reviews conducted by FEMA
        Region VI Grants Management Branch to ensure all necessary areas are covered in the revised
        monitoring plan. The revised state monitoring policy must be submitted to the GPD Program
        Analyst within 90 days of the receipt of the final report via the grantee notification. FEMA
        believes this satisfies the intent of the recommendation and requests that it be resolved and open.

        OIG Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of GOHSEP to require the State Administrative Agency to
        follow up on progress made by Texas A&M University and ensure that the New Orleans Urban
        Area implements its multi-year training and exercise plans once they are completed.

        FEMA Response to Recommendation #3: FEMA concurs with the recommendation. FEMA
        requests that GOHSEP submit an implementation plan and timeline of Texas A&M University's
        development and completion of New Orleans Urban Area's Multi-Year Training & Exercise
        Plan within 30 days of the receipt of the final report via the grantee notification. The timeline
        must include: (1) action item and anticipated outcome; (2) timeline for completing action
        item/outcome; (3) responsible entity for action item; and (4) anticipated completion date.
        Fwther, per the requirements of the FY 2009 HSGP Guidance, GOHSEP is required to submit
        the New Orleans Urban Area Multi-Year Training and Exercise Plan immediately following its
        completion or within 90 days of receiving the final report, whichever comes first. FEMA
        believes this satisfies the intent of the recommendation and requests that it be resolved and open.

        Again. we thank you for the opportunity to provide comments concerning this report. Please
        contact Brad Sheiks, Chie~ Audit Liaison at 202-646-1308 regarding further questions or
        concerns.




          The State of Louisiana’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 13

Appendix B
Management Comments to the Draft Report




      BOBBY JINDAL                   ~tate         of JLoui£)tana                              PAT SANTOS
         GOVERNOR                                                                             INTERIM DIREcroR
                              Governor's Office of Homeland Security
                                                and
                                    Emergency Preparedness




         August 22, 2011



         Anne L. Richards
         Assistant Inspector General for Audits
         Office of Inspector General
         U.S. Department of Homeland Security
         Washington, DC 20528


         Dear Ms. Richards,

         Please accept this letter as official response to your Draft Report: The State of Lou;s;ana's
         Management of Homeland Security Program and Urban Areas Security Initiative Grants
         Awarded During F;scal Years 2007 through 2009. We have reviewed the report and have no
         reservation in publicly releasing this document upon inclusion of the following response to the
         fisted recommendations:

         Recommendation #1:

             •   The Louisiana State Governor's Office of Homeland Security and Emergency
                 Preparedness concurs with this recommendation.          The State of Louisiana employs
                 performance measuring within the state general fund budget process. Whereas the
                 Homeland Security Grant Program currently does not require performance measuring,
                 and FEMA has not set forth guidance, the state will develop objectives that are specific,
                 measurable, achievable, results-oriented, and time·limited in our strategic plan.

         Recommendation #2:

             •   The Louisiana State Governor's Office of Homeland Security and Emergency
                 Preparedness concurs with this recommendation. As SM, subgrantee monitoring is
                 vital in assuring compliance with federal requirements, as well as with additional state
                 imposed special conditions. In 2008, during a change in the administration of state
                 government, the SM. began the process of creating the current Compliance Section
                 within the agency to address the monitoring shortfall. This review and subsequent
                 recommendation addresses our transformation. The SAA will implement additional




      7667 Independence Boulevard • Balon Rouge, Louisiana 70806 • (225) 925-7500 • Fax (225) 925-7501




          The State of Louisiana’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 14

Appendix B
Management Comments to the Draft Report




                 procedures to address our Compliance Section's monitoring processes to enhance the
                 monitoring system currently in place and to ensure subgrantee compliance with all
                 Federal and grant requirements. The Compliance Section completed 45 site visits in
                 calendar year 2010, and anticipates completing approximately 40 site visits in calendar
                 year 2011. The site visits are prompted by a Risk Assessment that is completed after
                 each fiscal year end. The information in the Risk Assessment is a compilation of data
                 received from grant programs that the SM oversees.

         Recommendation #3:

            •    The louisiana State Governor's Office of Homeland Security and Emergency
                 Preparedness concurs with this recommendation. The SAA works closely with the New
                 Orleans Urban Area that comprises the four Parishes within Region 1. The SM through
                 the Governor's Office of Homeland Security and Emergency Preparedness,
                 Preparedness Section, has supported the Urban Area in the development of their multi-
                 year training and exercise plans. The SM. will continue to support this activity and
                 ensure that the Urban Area develops and implements its multi-year training and exercise
                 plans accordingly. To date, the project is well underway and the Region 1 working group
                 and Texas A&M University have held numerous regional, individual and stakeholder
                 planning meetings that included state representatives.

         I would also like to thank you and your staff for all that you do for the states and can image that
         the audit process at times can be thankless; however, your hard work does not go unrecognized
         by me and my staff as we understand the importance of your mission. Moreover, the individuals
         that you sent to louisiana were both professional and helpful during this audit process and I
         commend them for their hard work.

         Should you have any questions, or need additional information please do not hesitate contacting
         me, or your staff may contact Clay Rives, Deputy Director of Homeland Security, at (225) 925-
         7500.




         'ff;G-
         pf~tos
         PS/cr




          The State of Louisiana’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 15

Appendix C
Homeland Security Grant Program Background

                      The Homeland Security Grant Program provides federal funding to
                      help state and local agencies enhance their capabilities to prevent,
                      deter, respond to, and recover from terrorist attacks, major
                      disasters, and other emergencies. The program encompasses
                      several interrelated federal grant programs that fund a range of
                      preparedness activities, including planning, organization,
                      equipment purchase, training, and exercises, as well as
                      management and administration costs. Programs include the—

                          State Homeland Security Program, which provides financial
                          assistance directly to each state and territory to prevent,
                          respond to, and recover from acts of terrorism and other
                          catastrophic events. The program supports the implementation
                          of the State Homeland Security Strategy to address planning,
                          equipment, training, and exercise needs.

                          Urban Areas Security Initiative, which provides financial
                          assistance to address the unique planning, equipment, training,
                          and exercise needs of high-risk urban areas, and to assist in
                          building an enhanced and sustainable capacity to prevent,
                          respond to, and recover from threats or acts of terrorism and
                          other disasters. Allowable costs for the urban areas are
                          consistent with the State Homeland Security Program.
                          Funding is expended based on the Urban Area Homeland
                          Security Strategies.

                      The Homeland Security Grant Program also includes other
                      interrelated grant programs with similar purposes. Depending on
                      the fiscal year, these include the Metropolitan Medical Response
                      System, the Citizen Corps Program, and the Law Enforcement
                      Terrorism Prevention Program. The Homeland Security Grant
                      Program is aligned with the National Priorities, as established in
                      FEMA’s National Preparedness Guidelines, September 2007:

                                          National Priorities
         Expand Regional Collaboration            Implement the National Incident
                                                  Management System and National
                                                  Response Plan
         Implement the National Infrastructure    Strengthen Information Sharing and
         Protection Plan                          Collaboration Capabilities
         Strengthen Interoperable and             Strengthen CBRNE Detection, Response,
         Operable Communications Capabilities and Decontamination Capabilities
         Strengthen Medical Surge and Mass        Strengthen Planning and Citizen
         Prophylaxis Capabilities                 Preparedness Capabilities




          The State of Louisiana’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                             Page 16

Appendix D
Louisiana Governor’s Office of Homeland Security and
Emergency Preparedness Organization Chart




Source: Governor’s Office of Homeland Security and Emergency Preparedness.




           The State of Louisiana’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 17

Appendix E
Map of Louisiana’s Nine Homeland Security Regions




Source: Louisiana’s Governor’s Office of Homeland Security and Emergency
Preparedness.




           The State of Louisiana’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 18

Appendix F
Major Contributors to this Report

                       Jewel Butler, Director
                       Yesi Starinsky, Audit Manager
                       Cecilia Carroll, Audit Manager
                       J. Eric Barnett, Auditor-in-Charge
                       David Porter, Auditor
                       Victor Leung, Program Analyst
                       Mark S. Phillips, Referencer




           The State of Louisiana’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 19

Appendix G
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional oversight and appropriations committees, as
                       appropriate




           The State of Louisiana’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 20

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
